NO.

 

IN THE SUPREME COURT OF THE UNITED STATES

 

SEAN BUSH — PETITIONER
VS
STATE OF FLORIDA — RESPONDENT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

Petitioner has previously been granted leave to proceed in forma pauperis in
the Circuit Court, Seventh Judicial Circuit, in and for St. Johns County.

Petitioner’s Application for Criminal Indigent Status and appointment of
Public Defender and Order of Insolvency for Appeal Purposes are attached hereto.

Respectfully submitted,

JAMES S. PURDY
PUBLIC DEFENDER
SEVENTH JUDICIAL CIRCUIT

{
—

NANCY RYAN

ASSISTANT PUBLIC DEFENDER
FLORIDA BAR NO. 0765910

444 Seabreeze Blvd. Suite 210
Daytona Beach, FL 32118

(386) 254-3758
ryan.nancy@pd7.org

 

 
 

 

 

SEAN ALONZO BUSH vs. STATE OF FLORIDA
. LT. CASE NO: 11001604CFMA.
HT. CASE NO: SC18-227

WIHE

STATE OF ORDA ve
SEAN fAeree Bus

TAM SEEKING THE APPOINTWENT OF THE PUBLIC DEFENDER
OR

 

 

——.| HAVE A PRIVATE ATTORNEY OR AM SELF-REPRESENTED AND SEEK DE TERMINATION OF INDIGENCE STATUS FOR COSTS:
‘Notice fo Applicant: ‘The proviolon of 3 public defender bout appointed lmarer snd costae prazeas services are not trea. eee nearer eben en

(oped eclerln adeeb gee rregtabenrt) You babel or on behadt ot the person tor whornyou ure misting this apgtication,
ieee ei patio a a Be Content itll bo axkied to ac costs hed be astesed aes you he concen t parerthgusdan,
On behall ot 3 reine or tax-doporstert ack, md Retin orate pcan at echude yaar income wal css. os vaaee J

1. Abe "7 dependente, (De natindude net ng at hasve and do nd clude # wading passe eryouredt)
2. Wave a fab bone incoora of $, Dm panei Oti-wecky ( Jeortsnonitty. () monthly (
(Fake home tome equals sday, fone stavinces, averine, tips axd sind a payments, Pe Cadre reper wx cron cred

a [east iesre pad) eet © -veaty see -rrordtty ()rronitiy (yy: (Cabde “Yer” and I in fe emunt you have Bab kind of income, obvennion ch
‘Social Seourty tenets. $ oes alain me ‘Veterons’| : a6 ne MOEA

   
  

 

S. Hfrave 2 folal amount of HabliKiee and debts in the amount of
6 receive: (Cinte Yee" or We)

 

      
 

 

7. Thave been released on bail in the amount of $. Cash __ Surety _

A person iho knowingy provides tatse inforrretion fo the clerk or the cau! Indeeling 3 deterytnetion of indgert dtatus under 8. 27.
ee FS, | attest that the Information | ha provided on thle Aon

   

ieoee th fet nl.
Dee of Bitth

oe tccep ees Re ea eke Print fall legal name __S Ey et
Adie Oe AG ee
mh

 

Liven on the information in this Application, Ihave delecmine the epplicant io be €ffadigent (Not Indigent
1 The Public Defender is hereby ppointed to the case listed shove until relieved by the Couct

Dated thie HT tay of Septoeben, 20 11 Clerk of the Circuit Court

‘This form was completed with the assistance of mathe
Glarkdeputy Ch ‘suthorized pereon

APPLICANTS FOUND NOT INDIGENT MAY SEEK REVIEW BY ASKING FOR A HEARING TIME. Sign here if'you went the judge to review:
the cleck’s decision ofnetindigent.

Rew. 24/2008
Developed by the Flotida Cirle of Court Operstion: Carparudions Paper #__
77

 

 
SEAN ALONZO BUSH vs. STATE OF FLORIDA
LT. CASE NO: 11001604CFMA_
HT. CASE NO: SC18-227

IN THE CIRCUIT COURT, SEVENTH

SEAN ALONZO BUSH JUDICIAL CIRCUIT, IN AND FOR
Appellant ST. JOHNS COUNTY, FLORIDA
vs CASE NO: 11001604CF

STATE OF FLORIDA
Appellee DIVISION: 56

ORDER OF INSOLVENCY FOR APPEAL PURPOSES
AND APPOINTMENT OF APPELLATE PUBLIC DEFENDER

THIS CAUSE having come before the court upon the Defendant’s motion, and the court
having reviewed said cause, determines that the defendant is an insolvent person. It is
therefore:

ORDERED AND ADJUDGED by the Court as follows:

1. The Defendant is hereby adjudged to be currently indigent for the purpose of Appeal
and is entitled to proceed in the appellate court without further application to the
court and without either the prepayment of fees or costs in this tribunal or the giving
of security therefore.

2. The Appellate Division of the Public Defender’s Office, located at 444 Seabreeze Blvd,
Suite 210 Daytona Beach, Florida 32118, is hereby appointed to represent said
Defendant in effecting his appeal in said cause.

3. The court reporter is hereby directed to transcribe the proceedings in said cause as
designated by Defendant’s counsel unless otherwise ordered by this Court or the
Appellate Court.

4. The cost of transcribing said proceedings shall be borne by the State of Florida.

DONE AND ORDERED in Chambers at St. Augustine, St. Johns County, Florida.
“Ag
02/12/2018
Howard M. Maltz, Circuit Judge

cc: Defendant
Office of the Public Defender
Court Reporters

Filed for record 02/13/2018 12:02 PM Clerk of Court St. Johns County, FL
4479

 

 
